OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/JORDAN’S
WATER RESOURCES
MANAGEMENT ACTIVITIES


AUDIT REPORT NO. 6-278-05-003-P
June 7, 2005




CAIRO, EGYPT
     Office of Inspector General


           June 7, 2005

           MEMORANDUM

           TO:                      Director, USAID/Jordan, Anne Aarnes

           FROM:                    Acting Regional Inspector General/Cairo, Lloyd J. Miller /s/

           SUBJECT:                 Audit of USAID/Jordan’s Water Resources Management Activities
                                    (Report No. 6-278-05-003-P)

           This memorandum transmits our final report on the subject audit. In finalizing the
           report, we c onsidered your comments on our draft report included as Appendix II.

           This report includes two recommendations—(1) USAID/Jordan correct the error in its
           Fiscal Year 2004 Annual Report and (2) USAID/Jordan correct its Performance
           Management Plan to define data sources, methods of data collection, and schedules
           for data collection.      In your written comments, you concurred with the
           recommendations and concluded final action on Recommendation No. 1 and
           proposed appropriate actions to address Recommendation No. 2. Therefore, we
           consider that a management decision and final action have been taken on
           Recommendation No.1. In addition, we consider that a management decision has
           been reached on Recommendation No. 2. When the Mission has completed actions
           on Recommendation No. 2, please coordinate final action on the recommendation
           with USAID’s Office of Management Planning and Innovation.

           I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
USAID Office Building
Plot 1/A Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov
CONTENTS
Summary of Results ............................................................................................................1

Background .........................................................................................................................2

Audit Objectives...................................................................................................................2

Audit Findings ......................................................................................................................3

What is the status of USAID/Jordan’s water resources management activities? ................3

Have USAID/Jordan’s water resources management activities progressed toward their
intended results? ...................................................................................................................5

     USAID/Jordan Did Not Meet Planned Targets ................................................................6

     Annual Report Needs Correction.....................................................................................8

     Performance Management Plan Needs Correction ........................................................9

Evaluation of Management Comments ...........................................................................11

Appendix I – Scope and Methodology ............................................................................12

Appendix II – Management Comments ...........................................................................14

Appendix III – Performance Indicators and Results for Fiscal Year 2003 Water
Resources Management ...................................................................................................16
SUMMARY OF RESULTS
Regional Inspector General/Cairo performed this audit to (1) determine the status of
USAID/Jordan’s water resources management activities and (2) determine if the activities
had progressed towards their intended results. (See page 2)

In regard to the status of activities, USAID/Jordan was managing 13 active projects with
estimated costs of about $250 million, as of August 2004. The following summarizes the
status of the Mission’s primary1 activities as of June 30, 2004: (See page 4)

•     One new management contract for water or wastewater system in place—The
      Mission developed the contract; however, the Government of Jordan decided not to
      use it because the Government considered it not economically viable.
•     Wadi Mousa Private Sector Participation—USAID/Jordan issued a request for
      proposal; bids were submitted; but the Mission made no award. The Mission
      redirected this effort into the establishment of the Aqaba Water Company.
•     Jordan Valley Authority develops and adopts a strategic plan appropriate to the
      needs of the coming years—Jordan Valley Authority developed and then adopted the
      strategic plan on June 11, 2003.
•     Jordan Valley Authority’s new accounting system approved by the Ministry of
      Finance—The contractor designed the system. However, a Government of Jordan
      employee testing the system changed the program code, which resulted in the
      program not working. Efforts are underway to correct the problem.
•     Public Company in Aqaba Established—The Aqaba Water Company started
      operation on August 1, 2004.

In regard to progress towards intended results, USAID/Jordan’s water resources
management activities had mixed success. (See page 5) USAID/Jordan did not meet its
targets for fiscal year 2003. The Mission did cite other accomplishments for fiscal year
2003. In addition, USAID/Jordan inaccurately reported in its Annual Report that it had
met its targets for fiscal year 2003 in the water sector. (See page 8) To address this
error, we recommended that the Mission revise its fiscal year 2004 Annual Report to
correct the error identified in this report. Subsequent to the end of the audit fieldwork,
the Mission notified USAID/Washington and corrected the error.

USAID/Jordan’s Performance Management Plan for the water sector included many of
the required elements described in the Automated Directives System. However, the
Performance Management Plan did not include all required elements such as specified
data sources, methods for data collection, and the schedule for data collection. (See
page 9) We recommended that USAID/Jordan correct its Performance Management Plan
to define data sources, methods of data collection, and schedules for data collection.

USAID/Jordan concurred with the audit findings and the report recommendations and
has already taken action to implement Recommendation No. 1. For Recommendation
No 2, USAID/Jordan is in the process of identifying appropriate data sources, collection
methodologies and schedules for the Performance Management Plan. (See page 14)

1
    We considered activities with a budget of $10 million or more as primary activities.

                                                                                           1
BACKGROUND
According to USAID/Jordan’s 1997-2001 Strategy, water is the single most critical
natural resource in Jordan. Industrial and agricultural growth, productivity, public health,
environment, a democratic and pluralistic society—virtually all aspects of sustainable
economic, social, and political development depend on availability of an adequate water
supply.

According to USAID/Jordan’s 1997-2001 Strategy, Jordanians have long identified the
lack of water as a critical development constraint. Historically, USAID has also
emphasized water as a central concern. Existing aquifers are being depleted at a rapid
rate and water rationing has been a fact of life for most Jordanians. For example, the
demand for water was expected to reach 1.3 billion cubic meters by the year 2005,
almost double the amount available during the mid-1990s. Rapid population increase,
inefficient water management and use, lack of adequate wastewater treatment capacity,
and inappropriate pricing policies have exacerbated the scarcity of water.

During 2003, a deteriorating security situation hindered USAID/Jordan’s progress in the
water sector. The assassination of a Mission official and the onset of the war with Iraq
caused the Mission to evacuate personnel from the country. Furthermore, the Mission
had to scale back on field visits and operate for prolonged periods without having
American contractors and grantee employees in country. In addition, for most of the
year, the Mission operated with only half of its American staff positions filled.

Through fiscal year 2003, USAID/Jordan’s water resources management activities fell
under the Mission strategic objective, “Improved Water Resources Management.” This
strategic objective started in October 1996 and ended in December 2003. From
inception to June 30, 2004, the Mission expended $196,929,174 in support of the
strategic objective. For fiscal year 2003, the Mission expended $32,866,935. Since the
inception of the strategic objective in 1996, USAID/Jordan completed 28 projects.

USAID/Jordan’s new Strategic Plan for 2004 through 2009 includes a new water sector
strategic objective—“Enhanced Integrated Water Resources Management.”

AUDIT OBJECTIVES
At the request of USAID/Jordan, we audited USAID/Jordan’s water resources
management activities to answer the following objectives:

•     What is the status of USAID/Jordan’s water resources management activities?
•     Have USAID/Jordan’s water resources management activities progressed2 toward
      achieving their intended results?

Appendix I contains a discussion of the audit’s scope and methodology.


2
    For the purpose of this audit, the term "progressed" means on schedule.

                                                                                        2
AUDIT FINDINGS
What is the status of USAID/Jordan’s water resources
management activities?
Through fiscal year 2003, USAID/Jordan’s water resources management activities fell
under the Mission strategic objective, “Improved Water Resources Management”. In
support of this strategic objective, the Mission aimed to accomplish three intermediate
results: (1) strengthen water sector institutions, (2) increase the efficiency in use of water
resources, and (3) improve the quality of wastewater.

In support of these intermediate results, the Mission was managing 13 active projects
with estimated costs about $250 million, as of August 2004. The five active projects with
estimated costs greater than $10 million accounted for about $227 million—about 90
percent of the estimated cost of the 13 projects. The following table contains a brief
description of these active projects during fiscal year 2003.

       Table 1: USAID/Jordan Active Water Projects During Fiscal Year 2003

                                       Estimated
 #          Project Name                 Cost                      Description
 1    Zara Ma’in Water System          $104,000,000 Water treatment plant, reverse
                                                    osmosis facility, 6 pumping
                                                    stations, control system, and 8
                                                    kilometers of pipeline.
 2    Restructuring &                   $65,000,000 Restructure and rehabilitate the
      Rehabilitation of Sixteen                     network to modern design
      Water Distribution Zones in                   standards.
      Greater Amman
 3    Aqaba Wastewater                  $37,500,000 Expand wastewater treatment
      Facilities Expansion                          plant.
 4    Water Efficiency & Public         $10,000,000 Promote water conservation and
      Information for Action                        increase public knowledge of
                                                    water issues.
 5    Education and Information         $10,000,000 Initiate a long term program of
      Program to Improve                            water use efficiency in agriculture.
      Irrigation Water Use
      Efficiency
 6    Jordan Valley Authority             $6,300,000 Develop a strategic plan for the
      Strategic Planning                             Jordan Valley Authority and build
      Program—Phase II                               the Authority’s strategic planning
                                                     capacity.




                                                                                          3
                                      Estimated
 #          Project Name                Cost                    Description
 7    Design, Implementation and        $6,000,000 Provide technical support to the
      Institutionalization of a                    Water Authority of Jordan and the
      Financial Accounting                         Ministry of Water and Irrigation to
      System in the Water                          design, implement, and
      Authority of Jordan and the                  institutionalize a financial
      Ministry of Water and                        accounting system.
      Irrigation
 8    Follow on the Host Country        $4,100,000 Assist the Water Authority of
      Contracting and Private                      Jordan and the Ministry of Water
      Sector Participation                         and Irrigation to establish policies
                                                   and procedures for procurement
                                                   and management.
 9    Phase II: Watershed               $2,079,786 Watershed protection.
      Management
      Implementation
 10   Skills Enhancement &              $1,930,000 Technical and managerial training
      Support to Decision Makers                   for the Ministry of Water and
                                                   Irrigation. Water quality studies.
 11   Construction Management           $1,730,000 Construction management.
      Services for Construction of
      the Mafraq Wastewater
      Treatment Plan
 12   City Links Associate Award          $450,000 Technical expertise.
      – Medical Waste
      Management – Jordan
 13   Resource Cities                     $330,950 Exchange local government
                                                   officials between the United
                                                   States and Jordan for a period of
                                                   18-24 months.

In addition to these 13 projects, USAID/Jordan was managing 9 water projects that
started in fiscal year 2004, with estimated costs of about $120 million as of August 2004.

According to USAID/Jordan’s Performance Management Plan, during fiscal year 2003,
the Mission focused on the following primary activities to achieve its strategic objective
and intermediate results.

One new management contract for water or wastewater system in place—project
#8 from Table 1—This target was part of the Private Sector Participation project.
USAID/Jordan assisted the Ministry of Water and Irrigation to develop a management
contract for the new Wadi Mousa water and wastewater system, and develop private
sector participation training plans.

USAID/Jordan developed the contract; however, the Government of Jordan decided not
to use it because the Government considered it not economically viable.

Wadi Mousa Private Sector Participation Contracted—project #8 from Table 1—
This target was designed to develop the framework (legal, regulatory, financial, and

                                                                                      4
operational) for private sector participation in the finance, management, and operation of
water and wastewater services in Jordan.

The Government of Jordan decided to cancel the contract because it wanted to explore
options for future private sector participation. According to a Mission official and Mission
meeting records, th e Mission redirected this effort into conducting a feasibility study
leading to the establishment of the Aqaba Water Company.

Jordan Valley Authority develops and adopts a strategic plan appropriate to the
needs of the coming years—project #6 from Table 1—This target was intended to
develop a 2003-2008 strategic plan for the Jordan Valley Authority while building the
Authority’s strategic planning capacity and institutionalizing process.

Jordan Valley Authority developed and then adopted the strategic plan on
June 11, 2003.

Jordan Valley Authority’s new accounting system approved by the Ministry of
Finance—project #7 from Table 1—The development of a new accounting system was
part of a project to assist the authorities in setting rates and improving cost recovery
through the development of relevant data, analytical tools, and strategic plans. This
included the development of cost/tariff computer models that enabled managers to look
at scenarios with variables including income, expenditures, employment levels, water
sales, and unaccounted-for water.

According to Government of Jordan correspondence and a USAID/Jordan official, the
contractor designed the system, and the system was run in parallel until the contractor
verified the data. However, a Government of Jordan employee testing the system
changed the program code without authorization, which resulted in the program not
working. Efforts are underway to correct the problem.

Public Company in Aqaba Established—project #8 from Table 1—This target was a
result of a project to assist the Ministry of Water and Irrigation and the Water Authority of
Jordan to establish policies, procedures for procurement, project management of private
sector participation activities, and institutional structure to assess the program.
Technical assistance included the development and implementation of private sector
participation for Aqaba and Wadi Mousa.

The Aqaba Water Company started operation on August 1, 2004.

Have USAID/Jordan’s water resources management activities
progressed toward their intended results?
USAID/Jordan’s water resources activities had mixed success in progressing towards
their intended results. USAID/Jordan did not meet targets for fiscal year 2003 from its
Performance Management Plan. (See Appendix III)

Although the Mission did not meet its targets for fiscal year 2003, the Mission had other
accomplishments during fiscal year 2003 as cited in its Annual Report. In addition,
according to Mission officials and documentation, it has progressed towards its intended
results since the inception of the Strategic Objective in 1996.


                                                                                         5
USAID/Jordan’s Annual Report for fiscal year 2003 results noted six accomplishments,
in addition to its targets. We verified all six of these reported accomplishments. For
example, the Mission signed a $31.8 million contract in February 2003 that will
rehabilitate and expand wastewater treatment for the city of Aqaba, Jordan.

In addition, USAID/Jordan officials cited other accomplishments that were not met during
fiscal year 2003 but represented the Mission’s progress towards intended results of the
strategic objective.

•   The Aqaba Water Company started later than the planned dates as cited in the
    Mission’s Performance Management Plan. Even so, the Company did start during
    the following fiscal year. It is the first Limited Liability Company in the water sector,
    according to a Mission official.
•   The construction of the As -Samra Wastewater Treatment Plant started later than the
    planned dates in the Performance Management Plan. Even so, the Government of
    Jordan signed the Project Sponsors Agreement during the following fiscal year.
•   The approval of the Financial Accounting System for the Jordan Valley Authority did
    not meet its planned dates in the Performance Management Plan. However,
    according to a Mission official, the Financial Accounting System was working
    successfully for the Aqaba Water Company.
•   The Wastewater Reuse Project demonstrated success, according to a Mission
    official. Through pilot projects, the Reuse Project resulted in cash crop gain and the
    effort is now continuing on a private basis.

Despite these positive accomplishments, USAID/Jordan (1) did not meet its intended
results for the Water Resources Management Strategic Objective during fiscal year
2003, (2) inaccurately reported summary of results in USAID/Jordan’s Annual Report,
and (3) did not have a complete Performance Management Plan. These issues are
discussed below.

USAID/Jordan Did Not Meet Planned Targets

    Summary: USAID’s Automated Directives System says that operating units should
    “set performance targets that can optimistically but realistically be achieved within
    the stated timeframe and with the available resources.” For fiscal year 2003,
    USAID/Jordan did not meet any of its performance targets. According to Mission
    officials, this occurred because of a deteriorating security situation, the
    assassination of a Mission official, and the war with Iraq. In addition, the Mission
    had not set or adjusted its performance targets that could optimistically but
    realistically be achieved. By not meeting its performance targets, the Mission may
    have delayed targets that were scheduled in the following years.


USAID’s Automated Directives System (ADS) 203.3.4.5 says that operating units should
“set performance targets that can optimistically but realistically be achieved within the
stated timeframe and with the available resources.”




                                                                                         6
During fiscal year 2003, USAID/Jordan did not meet its intended results for the Water
Resources Management Strategic Objective. As illustrated below in Table 2 and in more
detail in Appendix III, the Mission did not meet its planned targets for all seven
performance indicators for the Mission’s water resources management activities.

                   Table 2: Performance Indicators and Results for
                   Fiscal Year 2003 Water Resources Management

            Number of Performance           Targets     Targets       Targets
                 Indicators                   Met       Not Met     Partially Met
                      7                        0           4              3

For example, for the performance indicator, Index of Stronger Water Institutions,
USAID/Jordan intended to have two planned results—(1) one new management contract
for water or wastewater system in place during fiscal year 2003 and (2) Jordan Valley
Authority develops and adopts a strategic plan appropriate to the needs of the coming
year. The Mission partially met this target. For the first planned result, USAID/Jordan
developed the contract; however, the Government of Jordan decided not to use it
because the Government considered it not economically viable.

In another example, for the performance indicator, Total Wastewater Treatment Capacity
Available, USAID/Jordan intended to have five planned results—(1) construction at the
As-Samra project to start during fiscal year 2003, (2) construction at Mafraq to start
during fiscal year 2003, (3) construction at Aqaba project to start during fiscal year 2003,
and (4) feasibility and design to begin for two plants for two small communities. The
Mission partially met this target. For the first planned result, according to a Mission
official, because of uncertainties due to the war/political situation in the region, it took 18
months to finalize the financial agreement, which was signed in December 2003. The
financial agreement was a necessary precursor for construction to begin. For the
second planned result, USAID/Jordan had a request for proposal for the project and
received three responses. However, a contractor withdrew its proposal for security
reasons and the project was put on hold. USAID/Jordan met the third planned result.
For the fourth planned result, the contract was not signed until late fiscal year 2003, a
necessary precursor to start feasibility and design.

In another example, for the performance indicator, Index of Water Policy
Implementation, USAID/Jordan intended to have one planned result—Jordan Valley
Authority’s new accounting system approved by the Ministry of Finance. The contractor
designed the system, and the system was run in parallel until the contractor verified the
data. However, a Government of Jordan employee testing the system changed the
program code without authorization, which resulted in the program not working.

According to USAID/Jordan officials, a deteriorating security situation, the assassination
of a Mission official, and the onset of the war with Iraq caused the Mission to evacuate
personnel from the country. Furthermore, the Mission had to scale back on field visits
and operate for prolonged periods without having American contractors and grantee
employees in country. The Mission also operated with only half of its American staff
positions filled for most of the year. Given the above, activities were often delayed,
which resulted in targets not being met. In addition, the Mission had not set or adjusted
its performance targets that could optimistically but realistically be achieved, in contrast
with the requirement of the Automated Directives System 203.3.4.5. By not meeting its

                                                                                           7
performance targets, the Mission may have thereby delayed targets that were scheduled
in the following years.

Taking in consideration the above circumstances, we are not making a recommendation
for two reasons. First, the Mission was operating under unusually difficult constraints
including the deteriorating security situation, the assassination of a Mission official, the
war with Iraq, and the evacuation of Mission personnel. Second, the Mission adopted a
new Strategic Plan in October 2003 that was revised in December 2003. The new
Strategic Plan incorporated revised performance indicators and performance targets
starting with fiscal year 2004.

Annual Report Needs Correction

    Summary: Government standards for internal control require the accurate and
    timely recording of transactions and events. Contrary to these standards,
    USAID/Jordan inaccurately reported that it had met its targets for fiscal year 2003
    in the water sector. According to Mission officials, the inaccurate reporting
    occurred because of an oversight. Although we considered this one reporting error
    to be an isolated instance, the reporting of an inaccurate summary of results
    increased the risk that managers at USAID/Washington could have made improper
    conclusions and programmatic decisions about the Mission’s water resources
    management program.


The United States General Accountability Office issued in November 1999 the
“Standards for Internal Control in the Federal Government.” The General Accountability
Office Standards included examples of control activities to help ensure that management
directives are carried out. One of these control activities is the “ac curate and timely
recording of transactions and events.”

In one instance, USAID/Jordan reported the following inaccurate result for its water
sector.

•   The Mission reported that USAID/Jordan had met its targets for fiscal year 2003 in
    the three primary activity sectors – water, health and economic opportunities.

According to audit results, the Mission did not meet its targets for the water sector in
fiscal year 2003. According to Mission officials, the inaccurate reporting occurred
because of an oversight. Specifically, this error occurred in the cover memo for the
Annual Report and not in the report’s discussion of results for the strategic objective.
The reporting of an inaccurate summary of results in USAID/Jordan’s Annual Report
increased the risk that managers at USAID/Washington could have made improper
conclusions and programmatic decisions about the Mission’s water resources
management program. USAID/Jordan needs to correct the reporting error.

        Recommendation No. 1:                We recommend that the Director,
        USAID/Jordan, revise the Fiscal Year 2004 Annual Report to correct the
        error identified in this audit report.




                                                                                        8
In February 2005, USAID/Jordan notified USAID/Washington of the error contained in
this audit report. The Mission provided substitute language that corrected and
accurately reported its results for fiscal year 2003 for the water sector.

Performance Management Plan Needs Correction

  Summary: Automated Directives System 203.3.3.1 specifies the contents of a
  complete Performance Management Plan including data sources, data collection
  methodologies, and schedules for data collection. Contrary to these requirements,
  USAID/Jordan’s Performance Management Plan did not include these elements.
  This was due to inadequate supervision of a temporary employee assigned to
  complete the Performance Management Plan. Without specified data sources,
  methods for data collection, and the schedule for data collection, USAID/Jordan
  was without a complete critical tool for planning, managing, and documenting data
  collection.


Automated Directives System (ADS) 203.3.3.1 describes the contents of a complete
Performance Management Plan including the calendar of performance management
tasks, the set of performance indicators, baseline values, targeted values, data sources,
methods for data collection, schedules for data collection, known data limitations, and
quality assessment procedures. Specifically, ADS 203.3.3.1d requires that the Mission
specify the source of the data and the method for data collection. It says:

       The description of data collection should be operationally specific enough
       to enable an objective observer to understand how the raw data are
       collected, analyzed for meaning, and reported. A specific USAID Office,
       team, or individual should be assigned the responsibility of ensuring that
       the data are acquired by USAID in time to feed into decision making and
       preparation of the Annual Report. Data collection methods should be
       consistent and comparable over time, and any changes should be
       documented in the PMP.

In addition, ADS 203.3.3.1e requires that the Mission specify the schedule for data
collection. It says:

       Identify what actual time period the data cover, when data will be
       collected, and a person at USAID who is responsible for the collection
       and analysis of raw data, or the submission to USAID. Note that
       whenever possible, data should be collected and reported on in a U.S.
       fiscal year. In many cases data for certain performance indicators may
       not be available for this time period.

USAID/Jordan Performance Management Plan for the water sector included many of the
required elements. However, it did not specify data sources, methods for data
collection, and schedules for data collection—including distinguishing between fiscal
year and calendar year reporting. The Performance Management Plan was incomplete
due to inadequate supervision of a temporary employee. Specifically, the USAID officer
responsible for completing the strategic objective’s Performance Management Plan was
out on extended leave. The temporary replacement employee hired on purchase order

                                                                                     9
was not specifically instructed to take on this Performance Management Plan task during
the preparation of the Annual Report.

Without specified data sources, methods for data collection, and schedules for data
collection, USAID/Jordan was without a complete critical tool for planning, managing,
and documenting data collection. The Performance Management Plan contributes to the
effectiveness of the Mission’s performance monitoring system by ensuring that
comparable data will be collected on a regular and timely basis. Without precise data
sources and data collection methodologies and schedules, USAID/Jordan did not have
sufficient assurance that it was maintaining essential controls to the operation of a
credible and useful performance-based management system. Otherwise, results
reporting may be disrupted or compromised by staff turnover, data may not be
comparable from one period to the next, and the Mission does not have a sufficiently
detailed road map to manage its performance monitoring process. As a consequence,
the Mission needs to correct its Performance Management Plan.

       Recommendation No. 2:             We recommend that the Director,
       USAID/Jordan, correct the current Performance Management Plan to
       include all required elements such as defined data sources, methods of
       data collection, and schedules for data collection.




                                                                                  10
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Jordan informed the Assistant Administrator for
the Asia and Near East Bureau of the error in its Annual Report. USAID/Jordan provided
substitute language to correctly reflect the actual results. Based on the actions taken to
implement the recommendation, both a management decision and final action have been
reached for Recommendation No. 1. USAID/Jordan engaged consultants to help the
Mission identify appropriate data sources, collection methodologies and schedules for the
Performance Management Plan of the water sector. Based on the action taken to
address Recommendation No. 2, we consider that a management decision has been
taken. When this action is completed, the Mission can coordinate final action on
Recommendation No. 2 with USAID’s Office of Management Planning and Innovation.
Appendix II contains management’s comments in their entirety (without attachments).




                                                                                    11
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Cairo audited USAID/Jordan’s water resources
management activities in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine (1) the status of USAID/Jordan’s
water resources management activities and (2) if these activities progressed toward their
intended results.

We performed our fieldwork at USAID/Jordan in Amman. In addition, we met with
officials from the Ministry of Water and Irrigation in Amman and the Aqaba Water
Company. We visited a wastewater treatment project in Aqaba and three sites of the
Amman Potable Water activity. We also visited a water reclamation demonstration farm
in Irbid. Fieldwork was performed from October 12, 2004, to November 4, 2004.

The audit scope included assessing significant management controls over the reporting
of performance results. Such controls included:

•   Collection of data—project officers collected data from partners through monthly or
    quarterly progress reports
•   Verification of data—project officers verified data through site visits
•   Reporting of data—before the Mission reports results in the Annual Report, project
    management office initiates discussions with the technical office. The program and
    technical offices work together to ensure the completion of required data quality
    assessments.

Audit evidence included documentation such as Annual Reports, Performance
Management Plans, contractor performance reports, as well as interviews with USAID,
implementing partners, and Government of Jordan officials.

No prior audit findings affected the Mission’s water resources management activities. In
addition, the audit included tests on fiscal year 2003 results for seven performance
indicators that USAID/Jordan used for its water resources management activities. Our
tests included reviewing USAID/Jordan’s Annual Report and Performance Management
Plan and tracing reported data back to source documents.

Methodology

Initially, we interviewed Mission officials to identify how they monitor their water resource
management activities and how they ensure the reliability of reported results. We also
reviewed project documents and contractor progress reports. Further, we reviewed
USAID/Jordan’s current Strategic Plan, results packages, and water resource
management related Performance Management Plans.

For the Annual Report for fiscal year 2003 results, USAID/Jordan did not report results
for its seven performance indicators of the water sector. Aside from the performance
indicators, the Annual Report discussed six accomplishments of the water sector during
fiscal year 2003. We tested and verified these six accomplishments. To verify results,

                                                                                        12
                                                                             APPENDIX I

we reviewed and assessed the adequacy of supporting documentation, interviewed
Mission and partner officials, and performed site visits as needed.

Although USAID/Jordan did not report results for its seven performance indicators in its
Annual Report, the Mission did include these seven indicators with targets (planned
results) in its Performance Management Plan. We determined actual results for each of
the seven performance indicators. To determine actual results, we reviewed and
assessed the adequacy of supporting documentation, interviewed Mission and partner
officials, and performed site visits as needed. After the audit determination of results, we
compared the audited results to the Mission’s planned targets and assessed if the
Mission’s activities were on schedule toward achieving their intended benefits.

The Mission did not report results against the seven performance indicators for the water
sector in its fiscal year 2004 Annual Report and its 2003 Performance Management
Plan. Consequently, we could not compare reported results with results determined by
audit. However, we did compare targets (planned results) versus results determined by
audit.

Aside from the seven performance indicators, we did test and verify six other
accomplishments discussed in the Annual Report. For testing performance indicator
results determined by audit and other accomplishments, we used two thresholds—one
for accuracy and a second for the achievement of intended results.

•   First, to determine whether performance results or accomplishments were accurately
    reported, we used a five percent accuracy threshold between reported results and
    the results verified by our audit.

•   Second, to determine whether a performance indicator or accomplishment achieved
    its intended results, we used three different reportable condition thresholds, varying
    by type of performance indicator, as follows.

    o   For numerical performance indicators measured in millions of cubic meters, we
        used a five percent threshold.
    o   For numerical performance indicators measured in number of water systems
        designed or constructed (usually less than 10), we used a threshold “greater than
        one system” difference.
    o   For institutional and policy performance indicators measured in index points
        (usually less than 10), we used a threshold of “greater than one point” difference.

In addition, Mission officials provided their perspectives on the additional
accomplishments of the Mission’s water sector aside from information included in
USAID/Jordan’s fiscal year 2004 Annual Report and the 2003 Performance
Management Plan.




                                                                                       13
                                                                APPENDIX II




OFFICE OF THE DIRECTOR

                                                         May 8, 2005
To:          David Prichard, Regional Inspector General/Cairo

Through:     Andrew Plitt, Financial Management Office Director

From:        Anne Aarnes, USAID Director/Jordan

Subject:     Management Comments for Draft Report on Audit of
             USAID/Jordan's Water Resources Management Activities,
             (Report No. 6-278-05-XXX-P)

       We have reviewed the draft report on the Audit of USAID/Jordan's
Water Resources Management Activities, and we concur with the audit
findings and the recommendations presented therein. We appreciate that the
draft report accurately describes the difficulties experienced by the Mission
during FY 2003, including the assassination of a beloved colleague, the war
in neighboring Iraq, and the related absences of many staff and contractors
from the country due to evacuations. As a result of these hardships program
implementation in the sector suffered. Nevertheless, the audit proved
helpful by identifying a reporting error and highlighting opportunities to
strengthen the performance monitoring of the Mission’s water activities.
Our specific comments are presented below.

Recommendation No. 1: We recommend that the Director,
USAID/Jordan, revise the Fiscal Year 2004 Annual Report to correct the
error identified in this audit report.

       As acknowledged in the draft report, USAID/Jordan informed the
Assistant Administrator for ANE in February 2005 of erroneous language
contained in the cover memo of the 2004 Annual Report indicating that all
targets had been met. Substitute language was provided to correctly state
that performance targets in the water sector were not fully met. It is our
hope that the documented action taken by the Mission in this regard will
serve to close this recommendation.


                                                                             14
                                                                 APPENDIX II


Recommendation 2: We recommend that the Director, USAID/Jordan,
correct the current Performance Management Plan to define data sources,
methods of data collection and schedules for data collection.

       USAID/Jordan accepts the related finding and has engaged
consultants to help the Mission identify appropriate data sources, collection
methodologies and schedules for the Performance Management Plan of the
water sector, conforming to the ADS 203.3.3.1 guidance. We expect this
work to be completed within the next 30-60 days. Once the Mission’s
Performance Management Plan is amended to incorporate these corrections,
a copy will be provided to the appropriate office to close the
recommendation. We hope that the management decision taken as a result
of this audit recommendation will be acknowledged in the final report.

      We would like to thank the staff of the Office of the Regional
Inspector General for the cooperation and professionalism displayed in the
conduct of the audit.




                                                                             15
                                                                   APPENDIX III


              Performance Indicators and Results for
          Fiscal Year 2003 Water Resources Management

                                                 Actual
                                     Targets    Results
                                    (Planned   Determined                Met
#      Performance Indicator        Results)    by Audit  Difference   Target?
    2.1—Index of Stronger Water                                        Partially
1   Institutions                       2           1          -1         Met
    2.1.2—Index of Water Policy
2   Implementation                     1           0          -1       Not Met
    2.1.3—Index of Private
    Sector Participation and Cost
3   Recovery                           2           0          -2       Not Met
    2.2—Volume of Fresh Water                                          Partially
4   Made Available                     2           1          -1         Met
    2.2.1—Number of Water
    Systems Designed or
5   Constructed/Rehabilitated.         1           0          -1       Not Met
    2.3—Total Wastewater                                               Partially
6   Treatment Capacity Available       4           1          -3         Met
    2.3.1—Number of
    Wastewater Treatment
    Systems Designed or
7   Constructed                        3           0          -3       Not Met




                                                                               16
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
